FILED
AUG 2 6 2020
qMPlREM°FCrOURTLUfS<

In The

Supreme Court of the United States
In re LORCAN T. KILROY
Petitioner,
v.
LOS ANGELES UNIFIED
SCHOOL DISTRICT BOARD OF EDUCTION et al.
Respondents

On Petition For Extraordinary Writ Of
Mandamus To The United States Court of
Appeals For The Ninth Circuit Seeking Removal
Of Case No.19-55357 From That Allotted Circuit
Due To Political Bias From Potential Criminal
Exposure Of U.S. Vice Presidential Candidate,
Or Vice President, Kamala D. Harris
28 U.S.C. § 1651(a)
PETITION FOR EXTRAORDINARY
WRIT OF MANDAMUS
Lorcan T. Kilroy
In Pro Se
8927 Cedros Avenue, No. 6
Panorama City, California, 91402
Telephone: (818) 481-4873
Email: lorcankilroy@gmail.com

RECEIVED
SEP 16 ?m

V-

QUESTIONS PRESENTED
a)

Whether or not democrat political
bias to protect Sen. Kamala Harris
from exposure to criminal
prosecution existed in USCA9 No. 1955357, enough to warrant an order
for non-California based federal law
enforcement investigation of criminal
obstruction ignored by circuit jurists.

b)

Whether or not democrat political
bias to protect Sen. Kamala Harris
existed in USCA9 No. 19-55357,
enough to warrant an order that the
case be reheard in a different circuit.

c)

Whether, in termination of public
employees with property interests,
the ninth circuit’s upholding of
indefinite deprivation of all pay, well
before the date of hearing offered as
satisfying Loudermill, meets U.S.
standards set by Loudermill.

d)

Whether or not proof that the ninth
circuit upheld summary judgment
without reading the ‘Statement of
Uncontroverted Material Facts’ and
corresponding ‘Objections And
Statements Of Dispute’, meets U.S.
standards set by the Supreme Court.
l

V-’

EXCEPTIONAL CIRCUMSTANCES WARRANT
EXERCISE OF THE COURT'S DISCRETIONARY
POWERS, AND ADEQUATE RELIEF CANNOT BE
OBTAINED IN ANY OTHER FORM OR FROM
ANY OTHER COURT
As described herein and in referenced circuit and
U.S.D.C. filings of uncontroverted documentary
evidence, potential criminal exposure of U.S. Vice
Presidential candidate, or Vice President, Kamala D.
Harris exists upon any remand and reversal, as this
extraordinary circumstance warrants use of the
court’s discretionary power. No other court has the
power to reverse the decision of the circuit court and
remove the case to a different circuit under these
extraordinary circumstances.

n

LIST OF PARTIES
Pursuant to Rule 20.2 and 14.1(b), Petitioner states
that the parties include:
Lorcan T. Kilroy, Appellant and Petitioner.
LOS ANGELES UNIFIED SCHOOL DISTRICT
BOARD OF EDUCATION, JOHN PLEVACK,
individually and in official capacity as Principal of
Millikan Middle School; PAULA GREENE,
individually and in official capacity as Assistant
Principal; JUSTO AVILA, individually and in official
capacity as Chief of Human Resources; MICHEL
VEZINA, individually as a school parent; JANE
DOE, individually as an LAUSD student; GEORGE
MCKENNA, SCOTT SCHMERELSON, MONICA
RATLIFF and REF RODRIGUEZ, individually and
in their official capacities as Board members ,
Defendants And Respondents.

in

•r*

TABLE OF CONTENTS
Page
Questions Presented

1

EXCEPTIONAL CIRCUMSTANCES
WARRANT EXERCISE OF THE COURT'S
DISCRETIONARY POWERS, AND
ADEQUATE RELIEF CANNOT BE
OBTAINED IN ANY OTHER FORM OR
FROM ANY OTHER
COURT.............................................................. n
LIST OF PARTIES....................................

,111

OPINIONS BELOW..................................

1

STATEMENT OF JURISDICTION &
CONSTITUTIONAL AND STATUTORY
PROVISIONS..............................................

..2

STATEMENT OF THE CASE

3

A. Overlooked Fatal Enumeration Errors By
Defendants In MSJ Documents Show
Ninth Circuit Justices Schroeder, Trott
And Canby, And U.S.D.C. Court Judge
Gee, And Her Magistrate Judge Early, Did
Not Even Read Crucial MSJ Documents
Including Kilroy’s Statement Of
Uncontroverted Material Facts And
LAUSD’s Responses , Before Decision
Dispositive To The Case, Proving Circuit
15
Political Bias And Case Rigging,
TABLE OF CONTENTS (continued)

A

V*

B. LAUSD Defendants Also Left Certain Key
Facts In Those Crucial Filed MSJ
Documents Uncontested/Uncontroverted,
Showing Ninth Circuit Justices Schroeder,
Trott And Canby, And Lower USDC Court
Judge Gee, And Her Magistrate Judge
Early, Did Not Even Read Those Crucial
MSJ Documents Including Petitioner’s
Statement Of Uncontroverted Material
Facts And LAUSD’s Responses To Those
Facts, Before Decision Dispositive To The
Case, Proving Political Bias And Case
17
Rigging In The Ninth Circuit
CONCLUSION
Kamala Harris And Her Connection To
Corrupt Oversight Of The Suppression Of
Witness Statements From, And Corrupt
Alteration Of A Date In, Los Angeles Police
Dept. Det. Report No. No. DR 12-09-11015,
And The Sexualized Accusations By
Defendants Enacted Mid-Litigation Against
Petitioner To Obstruct This Federal Action
And Protect Harris; The Who, What, Where,
And Why Behind Jurists’ Motives For This
29
Case Rigging.

TABLE OF CONTENTS (continued)

APPENDIX
United States Court of Appeals For The Ninth
Circuit, Order On Petition For Rehearing, Aug 11,
2020, Opinion Affirming Judgment, June 23,
App. A
2020
Registered California Process Server Eric Montoya’
Proof of Service Upon State Official Kamala Harris
In Individual Capacity, Mar 2,
App. B
2015
Pages 41 and 42 from Petitioner KILROY’s
Statement of Uncontroverted Material Facts in
support of his MSJ, (Document 148 in case 2:16-cv09068-DMG-JDE, filed June 4 2018); followed by
pages 54 and 55 from LAUSD Defendants’
corresponding responses in document 155 filed June
21, 2018, showing Defendants’ fact numeration
App. C
errors

4,

V'

TABLE OF AUTHORITIES

FEDERAL CASES
Cleveland Board of Education v. Loudermill,
470 U.S. 532
(1985)................................................................... passim
STATE CASES
Skelly v. State Personnel Board,
15 Cal. 3d 194
(1975).............................................

27,28

STATUTES
U.S.C. § 242

30

OPINIONS BELOW
The United States Court of Appeals for the Ninth
Circuit order denying Petitioner’s
substitute/corrected petition for rehearing En Banc
was issued August 11, 2020. App. A. The opinion of
the United States Court of Appeals for the Ninth
Circuit was issued on June 23, 2020. Also App. A.
The Ninth Circuit affirmed the decision of the
United States District Court Judge Dolly M. Gee for
the Central District of California issued on March
29, 2019, document number 241 in the District
Court's docketed matter number 2:16-cv-09068DMG-JDE (C.D. Ca.). The District Court adopted in
its entirety the Final Report and Recommendation of
Magistrate Judge John D. Early issued on December
6, 2018, document number 237.

1

STATEMENT OF JURISDICTION
The United States Court of Appeals for the
Ninth Circuit issued its opinion affirming the
decision of the United States District Court for the
Central District of California on June 23, 2020, App.
A. The jurisdiction of this Honorable Court is
invoked pursuant to 28 U.S.C. § 1254(1).

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves
(1) 18 U.S.C. § 1503 Obstruction
(2) 18 U.S.C. § 242 , Conspiracy
(3) Due Process and Liberty/ Injury to Reputation
(14th, 5th Amendments,) 42 U.S.C. § 1983
(4) Due Process Monell Claim
(14th, 5th Amendments,) 42 U.S.C. § 1983

2

STATEMENT OF THE CASE
To give context, petitioner summarizes a
related previous case, the obstruction of which gave
way to the cause of action in the instant case.
Petitioner Lorcan T. Kilroy was a public high school
Art teacher. As the son of Thomas Kilroy, Booker
prize shortlisted Irish playwright and retired chair
of the Modern English Dept, at University College
Galway, and Patricia Cobey, a New Yorker who
taught Dramaturgy at Princeton and Julliard,
petitioner was privileged to be a second-generation
lifelong educator in service to the public. He held a
terminal degree, (M.F.A. in studio visual art), in his
subject matter. The instant civil, (yet involving
uninvestigated unprosecuted U.S.C. obstruction),
cause of action came about because of Defendants’,
(petitioner’s former employers the Los Angeles
School District, (LAUSD), and LAUSD individuals),
acts to incapacitate petitioner’s other federal action
that has since closed.
Petitioner Kilroy previously litigated against
the LAUSD Defendants in 2013 while still working
for them as an Art teacher, (related case USDC cv
13-06373/Ninth Cir. no. 16-56484/ U.S. Supreme Crt.
18-9663.) As detailed below, CA. AG Kamala Harris
obstructed by pulling petitioner’s State teaching
license, as Harris was in individual capacity involved
in the political aiding and abetting of suppression of

3

witness statements from, and corrupt alteration of a
date in, a municipal police report connected to the
previous case, which petitioner inadvertently
discovered.
Petitioner went to work as an Art teacher for
Defendants at Van Nuys High School in 2003 and
had a smooth run until about 2011, and generally no
problems, until a new Principal Judith Vanderbok
arrived. In that first lawsuit, Art teacher petitioner
exposed, based on student classroom surveys and
records on his classroom computer, that LAUSD
individuals were quarantining students marked as
“special education” in certain classrooms and
denying them choices of electives. Later it emerged
they were committing fraud by dubbing behaviorally
“difficult”, or academically challenging non-English
speaking students, with the learning disabled
acronyms “SDC” or “SLD” on certain district
computer systems, with no required psycho
educational testing or parent consent, to obtain
federal tax dollars.
At first, in the previous case, petitioner had made
complaint to Principal Vanderbok to no avail, then to
LAUSD’s office of educational equity compliance in
2011. Vanderbok and LAUSD individuals responded
by, unbeknownst to petitioner at that time, enrolling
or transferring dozens and dozens of the most unruly
and offensive students into Petitioners classroom,

4

without noticing him, (under CA. Ed. Code 49079) ,
of previous suspension records , and then ignoring
dean behavior referrals, to try to pressure/ouster
Kilroy.
After dean referrals about the disparate
threats and abuse from students were ignored by the
administration, Petitioner wrote a desperate and
harsh letter to two parents of such students, (a letter
that was hastily broadcast on the NBC six o’ clock
news by reporter John Cadiz Klemack, a social
media friend of LAUSD General Counsel
Holmquist). NBC edited out fact that LAUSD had
told petitioner they were referring him for license
revocation and termination for the letter.
Petitioner, terrified, sued and claimed unequal
treatment under law and retaliation. He had, within
weeks of the letter, discovered a battery and
criminal threats crime by another teacher at his
school Van Nuys High School, when petitioner’s own
student M.R. confided that another teacher had
“choked” a student in class, a 15 year old boy, (the
“John Doe 1” perpetrator incident). This was within
weeks of petitioner’s supposedly harmful letter to
adult parents, but John Doe 1 only received an
“anger management referral.” The John Doe 1
incident is distorted by NBC reporter Klemack in the
NBC report about petitioner’s parent letter,
(available online), as NBC skirt mention of emails
from police confirming child abuse, that petitioner

5

*

had given NBC. Petitioner later discovered a slew of
other abusive and criminal comparator teachers
whose classroom acts and crimes outside school had
gone without penalty, and even been protected by
police and LAUSD.
In discovery Petitioner subpoenaed the police
and discovered, (despite the fact the crimes took
place in two classrooms full of minors and adult
aides, as John Doe 1 ran screaming after the 15
year old victim from classroom to classroom, choked
him, shoved him, dragged him across the floor, and
threatened his life), that dozens of classroom witness
statements from two classrooms had been
suppressed from the police reports, to “save” John
Doe l’s career. The City Atty. falsely stated “no
witnesses” as reason not to file charges. (This
damage control was in the weeks after the big
LAUSD Miramonte Elementary school sex abuse
scandal had hit the media.) Petitioner complained to
police command staff and got nowhere. He then
mailed all the secret witness statements to police
commission President Steve Soboroff at Soboroff s
private business address in Santa Monica CA. and
Soboroff personally telephoned and said he would
review it, but then Soboroff had a different
commission member email petitioner saying all was
all ok with the police handling. Petitioner then
complained to AG Kamala Harris who was silent but
CAG Harris’ client the CA. teacher credentialing
agency began making intimidating overtures of
6

revoking petitioner’s license as Harris stood by.
Petitioner was being given the message to stay quiet
and bury it, but then in March 2015 he had process
server Eric Montoya serve Harris in San Francisco
in individual capacity with notice of the John Doe 1
police cover-up, and he included some of the ignored
communications he had previously sent to Harris,
and Harris’ office, (copy of proof of service of that
service to Harris is attached as App. B, (redacted for
instant filing)).
A few months after serving Harris, (who was
seen in news reports personally visiting LAUSD
Supt. John Deasy and talking privately with him
before Deasy abruptly resigned), Defendants then
put petitioner in a dance classroom in Oct of 2015 to
supposedly “substitute”, and after class LAUSD
adults only, (with no sworn student statements),
falsified that Kilroy had looked at students’ buttocks
and looked in a makeshift broom closet changing
room they had illegally rigged up in the dance
classroom. Los Angeles police, as if told by top cop
Harris’ office, refused to investigate, instead
referring the matter to LAUSD for “administrative
handling.” LAUSD individuals then terminated
petitioner while violating his due process during the
termination as described herein, leading to the
instant action. Harris continued her silence and
then, as prosecutor, revoked petitioner’s Calif,
credential in 2016, using the 2012 letter featured on
NBC, (but tellingly none of the dance class
7

falsifications), as her pretext. A lawyer colleague of
Harris’, a former AG Deputy named John DeCure,
was swapped in at the last moment to substitute for
the regular license revocation administrative law
“judge”, to make sure revocation for the four year old
letter “stuck”. At issue here is the ruling on MSJ by
circuit judges, in LAUSD defendants’ favor.
Although they supposedly followed law when
granting Motion For Summary Judgment, (MSJ), for
Defendants, the ninth circuit and Calif. USDC
judges in this case made a little mistake which
reveals they and their clerks behind the scenes
never, as required, even read petitioner Kilroy’s MSJ
statement of uncontroverted facts and Defendants
crucial responses to those facts, proving their MSJ
decision was rubberstamped/pre-determined. They
and their clerks failed to notice a procedural glitch
described further herein: that numeration in the
Defendants’ MSJ responses to petitioner Kilroy’s
MSJ statement of uncontroverted facts was off,
rendering Defendants’ responses null. Also they
failed to notice, as described herein, an uncontested
fact that proves petitioner was permanently
deprived of pay before he was even offered a state
administrative, (OAH), hearing, the very hearing
offer then postured by USDC and circuit judges as
satisfactory of the Loudermill hearing standard.
Indefinite deprivation of pay before Loudermill
cannot stand.
These facts, when coupled with the staggering
8

documentary evidence filed, (and pinpointed
throughout the USDC docket by petitioner in his
uncontroverted affidavit in the Appendices of related
and already docketed United States Supreme Court
case No. 18-9663), show that Kamala Harris, in her
final days as CAG, in individual capacity, and
initially with local political motive, aided and
abetted the suppression of witness statements from,
and corrupt alteration of a date in, a municipal, (Los
Angeles), police detective’s report about John Doe I’s
crime.
Obviously Harris thought it was “just a little
one”, just a couple of misdemeanor battery and
criminal threats crimes brushed under the rug to
save LAUSD Supt. Deasy and police public shame
and political damage. Obviously during any trial
from the instant action, this fact might implicate or
damage Harris and, given the current political
situation, the circuit judges and USDC judge’s
behavior at MSJ points towards gross political bias.
Adding weight to that finding, this application comes
at the culmination of seven years of action, in two
cases, by a legally inexperienced victimized Pro Se
high school Art teacher. One glance at the dockets
shows that the action was unreasonably, in fact
gruesomely, drawn out by ninth circuit and Western
USDC courts, in effect spinning wheels, exhausting
Pro Se Kilroy, obfuscating the docket, subverting
and blocking meaningful discovery, and almost
killing him. Why that disgusting seven-year torture
9

scenario. Rhetorically speaking, why was there
refusal, in a wholly taxpayer funded public school
case, to actually save public money and time all
around by appointing, (as Kilroy requested), a
discovery master to quickly control tough defense
lawyers’ tactics beyond the merits. Why was there
refusal to order public school district LAUSD to
provide custodian declarations with business records
in discovery to make them admissible. Why, if not
for gruesome political bias. The California federal
jurists wanted a strung out obfuscated seven-year
docket. They wanted inadmissible business records
from LAUSD, not admissible. They wanted to hide
the issue of the aforementioned detective’s report
which was corrupted, because they wanted to protect
democrat official Harris in California. If not, then
what is the explanation. Taxpayers were paying
federal taxes to fund not just the court, but LAUSD’s
lawyer expenses, and the ninth circuit jurists further
allowed federal taxpayers to pay even for the,
(LAUSD), lawyers who protected a key defendant
who was a school parent, a non-public employee, a
private citizen, (MICHEL VEZINA.)
The only rational motive that exists for this
was to protect Kamala Harris and others from
prosecution for aiding and abetting the falsification
of the Los Angeles police detective’s report, (see
related U.S. Supreme Crt. No. 18-9663 Appendices
containing petitioner’s uncontroverted affidavit
about Harris’ involvement with petitioner’s case and
that police report).
10

This action has now unbelievably snowballed
to concern potential exposure of the running United
States Vice Presidential candidate, or Vice
President, (Harris), for this act of individual capacity
criminal activity, specifically the aiding and abetting
of the suppression of witness statements from, and
the corrupt alteration of a date in, that
aforementioned specific sequence of detective’s
reports, (all marked DR 12-09-11015 by Los Angeles
police), in a municipal police department in a
territory of the United States. That constitutes a
crime. See again copy of petitioner’s March 2, 2015
proof of service of process about the John Doe 1
crime cover up upon Harris in individual capacity,
(App. B.), and note documentation in the sworn proof
of inclusion of paper copies of some of the
communications previous to that service that were
stonewalled by her and/or her office, while she fumed
and waited to be sure she was “in the clear” from
Judge Gee, before revoking petitioner’s teaching
license in revenge. Harris’ former 2015 AG staffers
Rochelle East, Nathan Barankin, Kristen Dalessio
and others remain silent.
Harris acted alongside and to “back up” Los
Angeles Police Dept, command staff and then police
commission President Steve Soboroff during the
supposed oversight review of the high school teacher
on student battery incident that is LAPD DR 12-0911015, a review instigated by petitioner
schoolteacher Kilroy, and which led to destruction of
11

his teaching license by Harris, and to sexualized
falsifications which were separately used in Oct.
2015 to try to obstruct this action. (As stated, Harris
used no sexual falsifications in 2016 to absurdly
revoke petitioner’s teaching license, only her pretext
of the 2012 letter.) As shown in below discussion, the
democrat leaning ninth circuit, with the prospect of
democrat ninth circuit figure Harris as United
States Vice President, simply cannot adjudicate this
matter fairly. As the conscience shocking facts
discussed below reveal, there is now simply too much
political weight leaning against already pulverized
common schoolteacher petitioner Kilroy, for any fair
supposed “de novo” adjudication on appeal to
actually occur in Harris’ home courts dominated by
democrats.
As described in petitioner’s uncontroverted
affidavit within Appendices of U.S. Supreme Crt. No.
18-9663, the specific sequence of Los Angeles Police
Department, (LAPD), detectives’ reports marked No.
DR 12-09-11015, detailing the mid career white
schoolteacher John Doe l’s potentially career ending
classroom battery and criminal threats on an
impoverished minority 15 year old student victim at
Van Nuys High school in Los Angeles; alongside
petitioner’s encounter as a teacher with police
misconduct enacted to cover up those battery and
criminal threats crimes, is crucial to, and at the

12

heart of, this case and heart of related case Supreme
Crt. No. 18-9663. This is because Los Angeles police
command staff including then LAPD Chief Charles
Beck, then LAPD Juvenile Div. Captain Fabian
Lizarraga, police commission President Steve
Soboroff, and even then CAG Kamala Harris,
became involved, at petitioner’s instigation, in the
Los Angeles Police commission’s supposed oversight
of LAPD DR 12-09-11015. They then failed to correct
the situation as it snowballed because of the
potential political and media fallout. Petitioner’s
career and license were then destroyed in
obstructive attempts to make him stop litigating in
Pro Se about the little thorn of the LAPD reports
marked DR 12-09-11015, (see lower court operative
complaint related to instant appeal (“FAC”).
(Defendants’ SER 1036-1110).
The gravity and resultant political yaw of the
lower court and Ninth Circuit decisions thus far
cannot be overestimated and petitioner Kilroy now
needs relief from the nation’s highest court.
Former Los Angeles Unified School District high
school Art teacher Lorcan T. Kilroy thus requests
this United States Supreme Court grant relief from
the ninth circuit court of appeals, this time in ninth
circuit case No. 19-55357 in which circuit judges
Schroeder, Trott and Canby, (or whoever scribed Pro
Se related orders on their behalf), on the very date of
August 11, 2020 when Harris was chosen as U.S.
Presidential running mate, denied Kilroy’s Petition

13

For Rehearing En Banc asking for obstruction
investigation, (while explaining to Kilroy and the
public that all members of the 9th circuit court saw
and evaluated the En Banc petition). This follows
justices Schroeder, Trott and Canbys’ summary,
(essentially one page of paper (DktEntry 26-1)),
upholding of USDC judge Dolly Gee’s singular lower
court judgment for Defendants in which judge Gee
ruled simultaneously on both petitioner Kilroy’s and
LAUSD Defendants’ dual motions for summary
judgment, (MSJ’s) at once.
This lower court judgment was without, (as
discussed and proven below), judge Gee or her
magistrate judge Early, (who prepared the
R&R), even reading Petitioner Kilroy’s MSJ crucial
statement of uncontroverted material facts, (see case
2:16-cv-09068-DMG-JDE Documentl48, pages 40-41
(crucial facts # 65-68), filed 06/04/18), or reading
LAUSD Defendants’ supposedly corresponding
crucial objections, (see case 2:16-cv-09068-DMG-JDE
Document 155, filed 06/21/2018, pages 54-55
(LAUSD’s crucial facts # 66-69 but scrambled
numeration not corresponding to Kilroy’s #65-68
numeration). Kilroy’s MSJ was also notably filed
before LAUSD Defendants’ MSJ was filed. As proven
below, in enacting their one page order upholding
judge Gee’s judgment, justices Schroeder, Trott and
Canby did not read the crucial MSJ documents
either.
As proven below, it was all pre-determined, all
14

rigged. It didn’t matter what the evidence was,
Petitioner’s case was destined to be thrown out and
jury trial denied, destroying his life and career for
the next four decades. (Petitioner does not believe in
“retirement” and would have taught Art into his
eighties or nineties.)

OVERLOOKED KEY ENUMERATION ERRORS IN
FILED MSJ DOCUMENTS SHOW NINTH
CIRCUIT JUSTICES SCHROEDER, TROTT AND
CANBY, AND LOWER U.S.D.C. COURT JUDGE
GEE, AND HER MAGISTRATE JUDGE EARLY,
DID NOT EVEN READ CRUCIAL MSJ
DOCUMENTS INCLUDING PETITIONER’S
STATEMENT OF UNCONTROVERTED
MATERIAL FACTS AND LAUSD’S
OBJECTIONS/ADMISSIONS TO THOSE FACTS,
BEFORE DECISION FATAL TO KILROY,
PROVING GRUESOME POLITICAL BIAS AND
CASE RIGGING IN THE NINTH CIRCUIT
Justices Schroeder, Trott and Canby did not, as they
claim in their one page order, evaluate anything “de
novo”. If they or lower court judge Gee, or her
magistrate judge Early, had even read Petitioner’s
MSJ Statement of uncontroverted material facts,
(case 2:16-cv-09068-DMG-JDE Document 148), or
read Defendants’ responses/objections, (case 2:16-cv09068-DMG-JDE Document 155), they would have
15

been legally compelled to act on the fact that
defendants’ key MSJ ‘Objections And Statements Of
Dispute’ regarding due process in petitioner’s
termination were enumerated incorrectly and didn’t
even match up to petitioner Kilroy’s numbered facts
as required. As mentioned above, see App. C (case
2:16-cv-09068 Document 155, pages 54-55 (LAUSD’s
crucial MSJ ‘Objections And Statements Of Dispute’
marked # 66-69), and then examine App. C case
2:16-cv-09068 Document 148, pages 40-41, (Kilroy’s
substantively identical uncontroverted material facts
but marked as # 65-68.)) LAUSD Defendants’
‘Objections And Statements Of Dispute’ document
fouls and obfuscates the numeration of their
responses, e.g. responding to Kilroy’s uncontroverted
fact 65 with an objection and statement of dispute
labeled number 66, responding to Kilroy’s
uncontroverted fact 67 with an objection and
statement of dispute labeled as number 68 etc. etc.
Letter of procedure dictated LAUSD
Defendants’ responses/objections to Kilroy’s
Statement of Uncontroverted Material Facts during
MSJ be disregarded and an order issue to LAUSD to
re-file and correct numeration. After all, if one takes
LAUSD’s MSJ ‘Objections And Statements Of
Dispute’ strictly as they lie currently enumerated in
the filed permanent record of the federal courts, as
vital documents upon which dispositive ruling was
supposedly made, they make no sense whatsoever
because of this numeration error. That simply
16

cannot stand. That permanency of unacceptable
error in dispositive federal court records did not
matter to these courts in the ninth circuit because
they never even read the crucial MSJ documents
before deciding in LAUSD’s, (and more importantly
Kamala Harris’) favor. Thus Defendants’ objections,
(without a proper re-filing), were technically
weightless in any deciding of the MSJ, and
petitioner Kilroy’s facts were left legally
uncontested.
The point of this for the U.S. Supreme Court
is that it was all done like this because of ninth
circuit democrat political bias. (Judge Trott also
disposed of the previous related case implicating
Harris.) It was all done with no proper court
adjudication at all, no proper weighing of facts, and
done specifically to protect Harris. Any shrewd jurist
without political blinders on can see right through it.
LAUSD DEFENDANTS LEFT CERTAIN CRUCIAL
FACTS IN FILED MSJ DOCUMENTS
UNCONTESTED/UNCONTROVERTED,
SHOWING NINTH CIRCUIT JUSTICES
SCHROEDER, TROTT AND CANBY, AND LOWER
USDC COURT JUDGE GEE, AND HER
MAGISTRATE JUDGE EARLY, DID NOT EVEN
READ THOSE CRUCIAL MSJ DOCUMENTS
INCLUDING APPLICANT/PLAINTIFF’S
STATEMENT OF UNCONTROVERTED
MATERIAL FACTS AND LAUSD’S
17

OBJECTIONS/ADMISSIONS TO THOSE FACTS,
BEFORE DECISION FATAL TO KILROY,
PROVING GRUESOME POLITICAL BIAS AND
CASE RIGGING IN THE NINTH CIRCUIT
Had justices Schroeder, Trott and Canby or
lower court judge Gee or her magistrate judge Early
even read petitioner Kilroy’s MSJ Statement of
uncontroverted material facts, and read Defendants’
responses/objections, they would also have noticed
that, even if one overlooks the LAUSD Defendants’
enumeration error described above, LAUSD’s filed
MSJ objections show that Defendants markedly did
not contest that Kilroy was stripped of property,
(pay), indefinitely, but moreover stripped on a date
well before the offered OAH, (State office of
administrative hearings), hearing could have been
held, in fact stripped of pay even before the 30 day
window, (which petitioner was given to elect or not
elect OAH), had expired. Defendants leave
uncontested, (aside from fouling their numeration as
previously described), petitioner Kilroy’s statement
of uncontroverted facts No.’s 66, 67 and 68, (App. C),
which make clear that his pay was indeed cut off, (by
LAUSD’s devious superfluous 15 day suspension
without pay), before the 30 day window in which to
elect any OAH hearing even began or ended, and it
is uncontested that it was never reinstated. Thus th’e
15 day suspension expired even before the 30 day
window expired, and Kilroy’s pay should have been

18

reinstated if the court and LAUSD’s theory about
OAH hearing as Loudermill “pre deprivation”
hearing is correct. It was not correct.
Had Kilroy even elected OAH hearing he still
would have been deprived of property rights before
that hearing, (even if the hearing had improbably
been held the very next day after the expiration of
the 30 day window within which to elect it, and not
months or years down the road as is routine in
California). (Petitioner requests the court take
judicial notice of the common public knowledge that
the States’ OAH administrative hearings in
California, as in many other states, take many
months or even years to transpire after being
scheduled.) Defendants yet again admit the given
suspension was only 15 days in their own filed
Document 161 Filed 06/22/18 Page 10, fact 25. It
was not given as 20 or 30 working days of
suspension, (petitioner was on yearly tenured
salary), and it was not given as an unlimited number
of days until the Loudermill hearing took place at
OAH should petitioner have elected OAH. Yet, in
defiance of their assigned 15 day suspension, (after
all just a disingenuous LAUSD pre-termination trick
to cut off salary), Defendants just immediately
stripped petitioner of pay permanently. For all
Defendants knew, petitioner might have elected
OAH, and the deprivation would have been months,
perhaps without living expenses, perhaps without
money for counsel, waiting the Loudermill hearing.

19

As it was, petitioner was confused by Defendants’
initial “Skelly hearing” circus and declined the OAH
because his due process rights had already been
violated.
Salary is a key property interest, if not the key
property interest. The Supreme court must put their
foot down and reiterate Loudermill. States cannot
deprive tenured public workers of property interest
indefinitely, of their critical monetary pay
indefinitely, before any hearing the States’ posture
as the required Loudermill hearing, nor can States’
ask the worker to pay cash monies to preserve this
constitutional property right in the form of an, (often
unaffordable), required cash bond. If this is not true
it opens the door for public employers to deprive
workers with property interest of pay for however
long they want before the Loudermill supposedly
“pre-deprivation” pre termination hearing months or
years down the road. How many days is ok? One
week of pay lost before the Loudermill? Three
weeks? A year or two? Such a nebulous wishy-washy
situation simply cannot be, and still uphold the
Supreme Court’s ruling in Loudermill. This also goes
for States’, (or at least in California the LAUSD’s),
devious otherwise superfluous immediately pre­
termination “suspension without pay” trick to cut off
pay. In this case the State’s’ objective was plain
criminal interference with a Pro Se teacher’s
tenuous federal action, the illegal deprivation of pay
was the most important thing for them to squash Pro
Se Kilroy’s litigation efforts. Therefore, in this case,
20

the offer of OAH hearing could not have stood as an
offer of hearing meeting Loudermill’s standards,
which is exactly what the Ninth Circuit erroneously
based its rubberstamp judgment on.
The offered OAH hearing, according to
justices Schroeder, Trott and Canby and lower court
judge Gee and her magistrate Judge Early, firmly
met the pre-deprivation hearing standard under
Loudermill. But nationwide in other circuits all
jurists know, and have known for years, that the
Loudermill hearing, the “initial check on mistaken
decision”, cannot be held after permanent pay
deprivation. Justices Schroeder, Trott and Canbys’
one page judgment thus falls apart.
Petitioner Kilroy could hypothetically have
been left penniless for months or even years, unable
to afford counsel as a result of deprivation, awaiting
LAUSD’s OAH hearing, supposedly the “pre­
deprivation hearing”, and that scenario simply fails
to meet this U.S. Supreme Court’s minimal
nationwide fairness standard that was set in
Loudermill to provide initial check on mistaken
decisions.
If the Ninth Circuit jurists Schroeder, Trott
and Canby, before tepidly suggesting the even
earlier Dec. 2015 scheduled suspension meeting with
Millikan school Principal PLEVACK also satisfied
Loudermill, had read the crucial MSJ documents as
required, they would also have seen that LAUSD
Defendants stubbornly refused to answer
Applicant/Plaintiff Kilroy’s MSJ statement of
21

uncontroverted facts No. 65. (App. C, also Dkt 148 at
40-41) This required a plain, (contested or not
contested), response, about a plain physical truth:
LAUSD Defendants issued the suspension, (which
was their trick to get Kilroy off their payroll and
incapacitate his Pro Se litigation), after and despite
Kilroy handing and emailing to them, (to school
Principal PLEVACK and higher human resources
official Francisco Serrato), uncontroverted federal
court filed declaration disputing under penalty of
perjury their sexual fabrications. Instead LAUSD
Defendants object that they can’t answer yes or no
because the answer would lead to inference in their
disfavor, (App. C, also Dkt 155 at 54-55). This
amounts to essentially waffling with improper legal
argument, while moreover fouling by incorrectly
labeling their response as responsive to fact No. 66
instead of 65. This unethical deceptive and evasive
public official answer should have been ruled as
admission of the fact in Kilroy’s favor, going to the
core function of Loudermill and the fact that LAUSD
Defendants’ railroaded termination refused to allow
for a required most basic “check on mistaken
decisions”.
An uncontroverted declaration of innocence is
a “red flag” of mistaken decision for any impartial
jurors. Still LAUSD Defendants ploughed ahead in
violation of the Loudermill standard, and ninth
circuit jurists Schroeder, Trott and Canby, just
backed them up, (judge Canby indicated as perhaps
panel leader by involvement in earlier motion
denial).
22

Kilroy also had no statement of termination
charges at the Dec 11, 2015 “notice of unsatisfactory
act” meeting with LAUSD principal PLEVACK and
official SERRATO, a vital Loudermill requirement,
(the Dec 11, 2015 meeting and it’s date confirmed by
Decl. PLEVACK Dkt. 157-4). The 2016 termination
charges, (see Defendants’ filed termination charges
dated Dec 18, 2015 as Exh. M to decl. of LAUSD
Human Resources Chief Justo Avila Dkt, 154-2),
were not even prepared and signed until Dec. 18,
2015, after Dec 11, and after the Dec 14th and 15th,
2015 dates that LAUSD Principal PLEVACK admits
under oath, (Decl. PLEVACK Dkt. 157-4 Ilf 8-11)
were the scheduled, (and then re-scheduled), dates of
suspension meeting. Petitioner provided PLEVACK
illness notes as he had by that point become ill and
could not attend.
As admitted by AVILA under oath, Petitioner
was not given LAUSD Human Resources Chief
AVILA’s secret falsified termination charges until
much later; AVILA first mailed them to Kilroy via
regular and certified mail on Jan 12, 2016, then
again with an amended cover letter on Jan 14, 2016,
amended letter exhibited by AVILA as Decl. AVILA
Dkt. 154-2 Exh. N, and clearly stipulating the
charges were disclosed in January 2016, (Decl.
AVILA Dkt. 154-2 Tf8, Exh. N.)
AVILA admits under oath that LAUSD Board
member Defendants were responsible for cutting off
Petitioners property interests, (pay), on Jan 12,
2016, not Jan 14, 2016, (Decl. Avila Dkt. 154-2 at 2,
23

/I

Til 6-7). On Jan 12, 2016 there had been no supposed
Louder mill at OAH, and Petitioner had not even
informed AVILA, (during the 30 day window AVILA
gave him starting Jan 12, 2016), whether or not he
would avail himself of OAH. AVILA further refused
to verify his charges, (lies), under perjury penalty as
required, failing to controvert Kilroy’s declaration
given to AVILA’s subordinates PLEVACK and
SERRATO at the Dec 11, 2015 meeting.
Similar declaration was desperately
transmitted by Kilroy to Defendants multiple other
times before he was terminated and still to this day
is uncontroverted as to the sexualized lies used to
terminate. What is the value of federal court filed
uncontroverted perjury declarations in California.
What is the value of Kilroy’s uncontroverted perjury
declarations about the sexual accusations,
declarations also federal court embedded, as
confirmed in Defendants supposed “student safety
investigative team”, (SSIT), report of truly cancerous
sexualized hearsay lies by adults only, used as
pretext to terminate, all while complicit Los Angeles
police stood by and refused to investigate, (see that
SSIT report attached to Decl. of LAUSD lawyer John
McNulty Case 2:16-cv-09068 Dkt. 204-1 as Exh A.)
LAUSD lawyer McNulty tellingly secrets and
declines to file the final page “11 of 11” of the SSIT
report, (the date/signature page that is missing to
this day as indicated by pagination at the bottom of
the existing pages only running to pg. “10 of 11”).
McNulty also refused to verify truth of the
24

sexualized contents, or have any student witnesses
verify truth, knowing Petitioner’s life and career
were being destroyed and it would likely
incapacitate Petitioner’s Pro Se action. Both of these
acts of skirting go beyond zealous client advocacy
and step into aiding and abetting the federal crime
of obstruction. If the lawyer knows of falsity that is
crime of obstruction, and commits acts that further
that falsity, rather than just defending his client, he
is aiding and abetting that crime and has crossed the
line.
If officials, LAUSD Board Members,
California USDC courts, and even Ninth Circuit
jurists, as was the case here, give court filed and
other uncontroverted perjury declarations no weight
as a Loudermill “red flag”, no weight as a signal to
“put the brakes on”, and instead they just roll
onwards, supporting evil hideous career and life
destroying lies imputing loathsome disease of
pedophilia, then the essential function and standard
of Loudermill is lost.
Adding even more exposure to the ninth
circuit case rigging is the fact that ninth circuit
jurists Schroeder, Trott and Canby just ignored
Kilroy’s uncontroverted declaration, filed alongside
later gained dance class student witness
declarations, evidencing that juvenile dance
classroom witness L.N.’s filed declaration, (obtained
with consent of and alongside his parents), which
exonerated petitioner, differed in black and white
contrast from the fake handwritten statement
25

containing a pack of pedophilia imputing lies that
was proffered by LAUSD Defendants as L.N.’s
“witness statement”, (Decl. Kilroy Dkt. 216 f 5; Decl.
L.N. Dkt. 217.), and likewise juvenile dance
classroom witness R.V.’s filed declaration, (obtained
with consent of and alongside her parent), also
exonerating petitioner, differed in black and white
contrast from the fake handwritten statement
containing pedophilia imputing lie that was
proffered by LAUSD Defendants as R.V.’s “witness
statement”, (Deck Kilroy Dkt. 216 If6; Deck R.V.
Dkt. 219). How much more of a ‘smoking gun’ do
jurists want?
USDC judge Gee’s magistrate judge Early,
(despite the extreme difficulties that exist in getting
federal law enforcement to instigate complex and
expensive white collar investigations,) denied,
(Dkt.212), Petitioner’s motion, (Dkt. 203), to allow
Petitioner to reasonably just give the un redacted
evidence to federal law enforcement. Instead judge
Early decided himself sua sponte, without any law
enforcement investigation, that “claims of criminal
conduct are not supported” (See LAUSD lawyer
McNulty’s’s panicked opposition to the motion as
Dkt. 204, but tellingly absent any declaration
controverting the above declared inconsistencies in
real perjury sworn v. faked, (by McNulty or others),
student witness statements.) USDC judge Gee also
denied reasonable motion to immediately cause
LAUSD Defendants to prove up their mid-litigation
26

absurd sexual falsifications in court hearing under
perjury oath, (see judge Gee order Dkt. 198). To
petitioner this was all akin to Soviet Russia, not the
United States.
Ninth circuit democratic jurists aligned with
Kamala Harris just wanted petitioner’s litigation
destroyed and wanted him out of California public
employment. The student declarations v. the faked
handwritten undeclared statements, are glaring
evidence that LAUSD individuals did indeed simply
criminally manufacture fake handwritten witness
statements of supposed 7th grade students, and that
sat just fine with justices Schroeder, Trott and
Canby, otherwise they would have correctly found
that a “check on mistaken decisions” did not happen,
and found that it therefore cannot be said that due
process was served under Loudermill.
There were numerous other problems
supporting petitioner’s argument that the Ninth
Circuit was and is politically biased in this case,
including a second confusing “initial”, (and
chronologically first), termination related hearing,
(State Skelly hearing), held by LAUSD defendants
well before the offer of OAH hearing referenced by
justices Schroeder, Trott and Canby. That so called
“Skelly” hearing also failed to meet even
Loudermill’s minimal federal standards and
moreover prompted petitioner Kilroy into waiving an
OAH hearing offer, (OAH hearing which realistically
would have transpired months or years down the
road), and instead moved him to file in U.S. district
27

court. Justices Schroeder, Trott and Canby don’t
mention or discuss this. The “first” or “initial”
hearing in the termination of a tenured public
employee must also pass Loudermill’s standard, and
LAUSD Defendants’ chronologically first and initial
State “Skelly” hearing did not. If this is not legally
true, if the States are permitted to conduct one
“fake” Loudermill that fails Loudermill standards
but is then excused when the later “OAH” hearing is
offered as the “real” Loudermill, then how many
times are States allowed to “fake” Loudermill
hearings before offering the “real” Loudermill
hearing? The door is open for States’ to conduct one,
two, three, four, five, egregiously abusive “hearings”,
harassing and disturbing and confusing the
employee, before finally offering the “real”
Loudermill hearing. This is absurd.
This and most other arguments were spelled
out in petitioner’s Ninth Circuit filings of his opening
brief, reply brief, and his denied Petition For
Rehearing En Banc in the instant appeal, which
were then all summarily ignored with no rebuttal or
“reason” given by justices Schroeder, Trott and
Canby for upholding judgment, just the one page
rubber stamp statement that Kilroy was offered
OAH hearing and thus the constitutional
requirement was met. No “reason” does not satisfy
arguments, and no reason is equivalent to no
adjudication. In a fair court there is always “reason”,
arguments are not just ignored and passed by. That
28

is not the role of a court in the United States, but
things are apparently different in the Ninth circuit.
CONCLUSION
It is and was all Ninth Circuit corrupt design
to protect former CAG Kamala Harris from exposure
for aiding and abetting the suppression of witness
statements from, and corrupt alteration of a date in,
a sequence of Los Angeles police dept, detective’s
reports marked by police as No. DR 12-09-11015.
This sequence of reports is at the core of Kilroy’s’s
federal action, reports about the classroom battery
and criminal threats on a 15 year old minority
student victim by a mid career white LAUSD
teacher perpetrator, (see again related affidavit of
petitioner embedded in the court’s files within
Appendices to related U.S. Supreme Crt. No. 189663 Kilroy v. LAUSD et al.) (That related U.S.
Supreme Court case No. 18-9663 was notably closed
before even being heard or entering the Cert, pool,
via summary action of individual democrat
appointed justice Kagan in denial of a reasonable
motion that did not prejudice the court or
Defendants.)
In the middle of lower court proceedings in
that related case SC 18-9663, Kamala Harris’ camp,
and /or Los Angeles police and LAUSD defendants
on her behalf, sprung a falsified sexual misconduct
charge on petitioner/plaintiff Kilroy to try to blight
29

and smear him in the worst way known, and to
terminate him, all to obstruct his federal action. This
was yet another crime. LAUSD defendants, sure
that judge Gee was on their side, posted Kilroy, (who
was still employed by them), to substitute teach in a
middle school dance class. Then LAUSD adults, (no
sworn admissible statements from any child),
falsified after class that petitioner Kilroy had stared
at 7th graders’ buttocks, (in curiously only third
period), and falsified that he had peered into an
(illegal), makeshift broom closet changing room they
had rigged up in the dance classroom. Ninth circuit
jurists, police, (and apparently west coast based
FBI), then summarily ignored that crime of
obstruction, for political reasons, despite specific
reasonable request to simply ‘vet’ Defendants’
absurd mid-litigation sexualized and obstructive
claims, (see e.g. petitioner’s recent ninth circuit
denied Petition for Rehearing En Banc in the instant
case.)
Complicit LAPD juvenile division police,
despite a crime having been charged against Kilroy,
tellingly refused, under color of law, to investigate,
(even at Kilroy’s request), instead, (as Defendants
readily admit), referring it back to LAUSD for
“administrative” handling. In this way Kilroy was
robbed of due process of a proper law enforcement
investigation of the sham. This was Los Angeles
Police and Los Angeles School District individuals
conspiring together ,(18 U.S.C. § 242), to make the
obstruction of a federal action succeed, to disparately
30

not criminally investigate those sexualized
falsifications but instead merely refer them for
“administrative handling” to ease their further later
falsification that the lies “stick,” despite no direct
witness statements and only falsified hearsay by
adults. Police thus aided in this crime of obstruction.
It was unbelievable corruption, criminal obstruction,
and conspiracy between police and LAUSD
individuals, and likely Harris’ camp, simply because
of Kilroy’s onward marching litigation threatening
criminal exposure relative to their earlier corrupted
LAPD detectives’ report No. DR 12-09-11015. .
Harris’ history as CAG, and her character, is
relevant to this application’s core astounding and
unbelievable, (yet proven by uncontroverted filings),
fact that teacher Kilroy really got into so much
trouble with the State of California because he
exposed that Harris and CA. law enforcement
officials, under pressure, ratified in individual
capacity a crime connected to the police report at his
school.
Anyone who was a jurist behind the scenes in
the ninth circuit during Kamala Harris’ string of
conscience shocking supposedly legal moves while
she was climbing up as Calif. Atty. General
witnessed the all too common prosecutorial rabies of
notching up victories at the expense of truth. But
media reports and ninth circuit oral argument audio
recordings show that in Harris’ case the stunning
extent went to Harris even upholding perjury by her
AG Deputy on the stand during murder case
31

testimony. She had difficulty recognizing that her
act was wrong, (and illegal), and felt punishment of
her Deputy was not warranted. Harris’ difficulties
and previous disturbed willingness to cross the line
into public office criminality, (cloaked by immunity
of office), are revealed by such incidents during her
CAG tenure.
Her role in the instant case is also conscience
shocking. The law enforcement buck stopped with
Harris as CAG at the time that the hidden LAUSD
witness statements suppressed from LAPD DR 1209-11015 were exposed by Kilroy, (see Kilroy
affidavit within Appendices to SC 18-9663). Harris
ratified the crimes of sequential cover ups in the
various detectives reports all marked DR 12-0911015, and ratified the police commission’s corrupt
inquiry, to absolve LAUSD, to absolve then LAUSD
Supt. John Deasy, and to absolve her friend then
LAPD Police Chief Charles Beck and Police
Commission President Steve Soboroff. She thought a
common schoolteacher, (petitioner Kilroy), a teacher
who was moreover locked into a constrictive labor
union, (UTLA), would simply never be able to raise
the issue to any effect.
Now, with more power as U.S. Vice Presidential
running mate, or Vice President, attacks on and
exposure of past misdeeds by Harris, are, after all,
no matter how astounding, more routine and to be
expected and more easily brushed off as “ just
political fracas”.
32

(For the record petitioner Kilroy is neither left nor
right, democrat nor republican.)
Acts of ninth circuit jurists in the instant case
thus far, outrageously not even reading crucial MSJ
pleadings before disposing of the case by granting
MSJ, constitute pre-determined case decisions based
on absence of any rational basis and based on
improper personal motives, and thus violate the
constitution’s equal protection clause when
compared to acts in other circuits. Petitioner Kilroy
cannot identify any specific statute of the State of
California, or specific Act of Congress to draw into
question here in regard to constitutionality. Instead,
it is the acts of a circuit’s jurists as a group that is
here drawn into question. It is as if California ninth
circuit jurists consider themselves to be in a
different nation altogether, perhaps their proudly so
called “nation state” of California, apart from and
above the laws of the United States constitution,
making up their own rules on how to conduct
proceedings.
Respectfully submitted,
Bv: Is/LORCAN T. KILROY
Petitioner In Pro Se
Dated Sept 2, 2020
8927 Cedros Avenue, No. 6
Panorama City,
California 91402
Telephone: (818) 481-4873
Email: lorcankilroy@gmail.com
33

